August 5, 2010

JOHN T. EDGAR
VICE PRESIDENT, INFORMATION TECHNOLOGY SOLUTIONS

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

SUBJECT: Audit Report – Fiscal Year 2010 PostalOne! Outage
         (Report Number FF-AR-10-205)

This report presents the results of our audit of the fiscal year (FY) 2010 PostalOne!
outage (Project Number 10BO014FF000). Our objective was to determine how
the PostalOne! outage impacted U.S. Postal Service operations and revenue
collection. This audit was self-initiated and addresses operational and financial risk. See
Appendix A for additional information about this audit.

PostalOne! is the Postal Service’s primary system for recording business mail and
Periodicals transactions. The PostalOne! system allows users to enter postage
statements, deposits, and other financial transactions and to retrieve reports necessary
to manage the daily business of their units. It also allows customers to submit postage
statements and other information to the Postal Service through a web-based interface.
As of FY 2010 (through May 28, 2010), the Postal Service used this system at over
7,700 sites to record approximately $23 billion in revenue.1 On February 5, 2010, the
PostalOne! system was unavailable for 4 days because of an erroneous computer
command.

Conclusion

The February 2010 PostalOne! outage impacted mail acceptance operations and
revenue collection efforts nationwide. Although the Postal Service implemented a
contingency plan during this period, the Postal Service was not adequately prepared to
manually support operations during such an extended outage. In addition, employees
did not record revenue for mailings received during this period until the system returned
to full operation.

1
    PostalOne! data provided by Headquarters Business Mail Entry and Payment Technologies personnel.
Fiscal Year 2010 PostalOne! Outage                                                              FF-AR-10-205




Further, the Postal Service’s reliance on a system that has frequent interruptions in
availability could impact successful remediation of an existing significant deficiency
related to business mail acceptance (BMA).2

Key Business Mail Acceptance Operational Controls Impacted During the Outage

The February 2010 PostalOne! outage considerably impacted the effectiveness of
business mail entry unit (BMEU) operations3 and customer mailing activities.
Specifically, certain mail acceptance business controls that relied on PostalOne!
operational availability were not effective during the outage. Although the customers we
surveyed stated the Postal Service provided sufficient communications during the
outage on how to handle the mail, the customers incurred additional costs and
expressed concern regarding the operational ability of BMA systems. During the
February 2010 outage:

        Unit BMA clerks were not able to enter postage statements into PostalOne! and
         record revenue at the time mail entered the mailstream, as required.4

        BMA clerks were not able to use PostalOne! to verify whether (1) customers had
         sufficient funds in their accounts to cover postage for mailings, (2) mailers were
         qualified to claim reduced rates, and (3) mailers had paid appropriate fees when
         the mail entered the mailstream, as required.5

        The system did not prompt BMA clerks when in-depth mail verifications were
         required.6 Consequently, during the outage, clerks had to perform a 100 percent
         verification of all mailings of over 10,000 pieces.

        Retail associates, who normally use PostalOne! to process business reply mail
         (BRM) transactions, did not all have instructions or procedures outlining
         alternative manual actions to follow during the outage. According to Postal
         Service Headquarters, management provided instructions to retail associates via

2
  Ernst & Young, LLP, the independent public accounting firm contracted to express an opinion on the Postal
Service’s financial statements, reported a significant deficiency related to BMA in its Reports on Internal Control Over
Financial Reporting and on Compliance and Other Matters Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards (November 14, 2007, November 14, 2008, and November 16,
2009).
3
  As a means to address the significant deficiency and comply with Sarbanes-Oxley (SOX) requirements,
Headquarters BMA personnel identified key controls and are currently addressing control gaps related to the revenue
completeness process.
4
  Handbook DM-109, Business Mail Acceptance, Chapters 3 and 5, March 2010, states that acceptance employees
must enter postage statement information into the PostalOne! system prior to clearing the mail for operations.
Entering postage statements into PostalOne! in a timely manner is critical to revenue recognition, because there is
greater risk that postage statements could be lost or misplaced if they are not entered at the time the mailing is
accepted.
5
  Handbook DM-109, Section 3-3.2.
6
  Through the performance-based verification process, baseline performance data is put into the system on customer
mail quality to determine when in-depth verifications are needed.




                                                           2
Fiscal Year 2010 PostalOne! Outage                                      FF-AR-10-205



       the BMA Newsletter (dated February 8, 2010) and electronic messages on how
       to handle BRM transactions during the outage; however, some retail associates
       advised us they were not notified of the procedures. In addition, the newsletter
       was issued 3 days after the outage began.

The Postal Service did not have effective alternative action plans to ensure that key
mail acceptance controls were in place and followed during the outage or to minimize
the impact to its customers. While the Postal Service implemented a set of manual
procedures, commonly called a contingency plan, these procedures did not sufficiently
take the place of business controls that depend on a functioning PostalOne! system.
The Postal Service is in the process of updating its contingency plan to stress new
revenue completeness procedures and to enhance internal and external
communications. However, until this plan is finalized and addresses these concerns, the
Postal Service will continue to be at risk that not all revenue is collected and
recognized.

In addition to the impacts on key BMA operational controls, some customers indicated
they incurred additional costs to complete manual processes in the absence of
PostalOne!. Further, customers expressed a concern that the PostalOne! system, as
well as other applications feeding into the system, may not be able to process the
volume of transactions input by customers and clerks. Thus, customers and clerks may
have difficulty processing postage statements timely during increased volume periods.

The PostalOne! February outage resulted in delays in revenue collection and
recognition and increased employee, contractor, and customer costs. The Postal
Service recognized $298 million in revenue from 1 to 22 days late when it was able to
enter data manually from over 90,000 postage statements received during the outage.
We consider this $298 million to be revenue at risk. According to management, the
$298 million in late postage statements does not have a material impact on the financial
statements because the postage statements were eventually recorded during February
2010. While the February 2010 outage does not materially affect the financial
statements, if an outage of this magnitude were to occur at the end of a quarter or fiscal
year, it could have a significant impact on the financial statements. In addition, if an
outage of this magnitude occurred during key high mail volume periods, customers
would be severely impacted. See Chart 1 for the number of statements and
corresponding days late.




                                            3
Fiscal Year 2010 PostalOne! Outage                                                        FF-AR-10-205



                     Chart 1: Late Statements Grouped by Days Late




           Source: PostalOne! data for postage statements with a mailing date of February 5-9, 2010.

Management stated that the manual processes implemented worked as intended.
However, the Postal Service incurred $355,107 in additional employee overtime and
contractor costs for inputting the backlog of postage statements and restoring the
PostalOne! system to service. We consider the additional costs of $355,107 to be funds
put to better use. See Appendix C for details of the monetary and non-monetary
impacts. Finally, the extra costs customers incurred may have negatively impacted the
Postal Service’s customer relations (goodwill).

We recommend the vice president, Business Mail Entry and Payment Technologies, in
coordination with the vice president, Delivery and Post Office Operations:

1. Update and test the contingency plan to provide for the performance of key mail
   acceptance procedures in the absence of PostalOne!.

Management’s Comments

Management disagreed with the finding and stated that the contingency plan they
implemented during the outage provided manual processes that mitigated the
short-term impact and risks. However, management agreed to update their contingency
plan by September 30, 2010, to align with key financial controls. See Appendix D for
management’s comments in their entirety.




                                                      4
Fiscal Year 2010 PostalOne! Outage                                                           FF-AR-10-205



Uncertainty of PostalOne! Availability May Impact Successful Remediation of the
Significant Deficiency

In 2007, 2008, and 2009, the Postal Service’s independent auditor identified a
significant deficiency related to BMA.4 Correction of this significant deficiency is critical
to ensuring compliance with SOX requirements.

In their efforts to remediate this significant deficiency, the Postal Service implemented
an aggressive training program and initiated a new mail acceptance process that relies
on PostalOne! for key controls. In addition, they identified key revenue completeness
controls and are currently validating these controls. Nevertheless, interruptions in
PostalOne! availability present a challenge to the Postal Service’s successful
remediation efforts because of the heavy reliance on the system functioning properly
when accepting and recording business mail.

While we recognize the need to schedule interruptions in system availability for
maintenance and software upgrades, we found that from March 2009 through March
2010, 36 of the 90 interruptions (40 percent) in the PostalOne! system were
unscheduled and prevented clerks from posting statement data to the system.7 See
Appendix B for details of the 36 occurrences that impacted postage statement input.
Management advised us that PostalOne! is a highly resilient, stable, and reliable system
and that many of these issues are the direct result of customer connectivity problems.
Postal Service executives told us that since March 1, 2010, the PostalOne! system has
been available 99.7 percent of the time. However, we could not substantiate this
statistic because management did not provide supporting documentation.

The Postal Service has implemented several corrective actions to protect against any
future interruptions of this magnitude. They include:

          Replacing of the problem computer command with another, more secure
           command.

          Ensuring any data potentially impacted by the new command is properly
           protected before the command is fully executed.

          Assessing the existing schedule of backups for any system suffering an outage
           during the trouble-shooting stage of the outage response to avoid data
           corruption.

          Supplementing the current PostalOne! database back-up schedule with
           additional image backups every 12 hours.




7
    These interruptions in availability result from both scheduled and unscheduled events.




                                                            5
Fiscal Year 2010 PostalOne! Outage                                                                FF-AR-10-205



Several of the actions described will decrease the likelihood the Postal Service system
will experience extended interruptions in availability and/or outages such as the one that
occurred in February 2010. In conjunction with the use of additional image backups for
the PostalOne! system, senior management is evaluating other critical business
systems organization-wide for expanded use of this technology. These corrective
actions should enable the Postal Service to avoid similar availability interruptions in their
critical Information Technology (IT) operations and significantly enhance their ability to
meet recovery time objectives when interruptions occur.

Nevertheless, without PostalOne!, certain critical aspects of mail acceptance, including
revenue recognition and assurance, cannot be performed at the time mail enters the
mailstream. In the event of system interruptions and consequent reliance on manual
processes, the Postal Service runs the risk of mail not being properly verified and
revenue not being recorded. The Postal Service has recognized the need to correct a
critical design gap within PostalOne! to ensure that mail is accepted effectively and
revenue is recorded correctly. Accordingly, the Postal Service is currently in the process
of working to address and correct this gap.

We recommend the vice president, Information Technology Solutions:

2. Test the remediation controls identified to address gaps related to PostalOne!
   interruptions that affect efforts to remediate the significant deficiency.

Management’s Comments

Management agreed in principle with the finding and stated that they added SNAP8
backups to PostalOne!, and can recover the database within 30 minutes to 4 hours after
an outage occurs. In addition, they have tested the processes for back-up recovery.
Management emphasized that PostalOne! has had a 99.74 percent availability rate
since March 2010. Management also provided the breakdown of the 101 remedy tickets
they received for PostalOne! performance problems, which showed that 50 involved
minimal impact to system performance and 16 were full outages.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendations and management’s actions should
resolve the issues identified in the report. Although requested during the audit,
management did not provide the remedy ticket data until we received management
comments; therefore, we could not validate this data.




8
    SNAP is a snap shot of the database at a particular point in time that allows data to be replicated if needed.




                                                              6
Fiscal Year 2010 PostalOne! Outage                                     FF-AR-10-205



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, director, Field
Financial Central, or me at 703-248-2100.


   E-Signed by Kevin Ellenberger
 VERIFY authenticity with ApproveIt
           08/05/2010



for John E. Cihota
Deputy Assistant Inspector General
  for Financial Accountability

Attachments

cc: Joseph Corbett
    Thomas G. Day
    Ross Philo
    Vincent H. DeVito, Jr.
    Maura Robinson
    Jamie Gallagher
    Corporate Audit Response Management




                                           7
Fiscal Year 2010 PostalOne! Outage                                                             FF-AR-10-205



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The PostalOne! system is the Postal Service’s primary system for recording business
mail and Periodicals transactions. The PostalOne! system allows users to enter postage
statements, deposits, and other financial transactions; and to retrieve reports necessary
to manage the daily business of their units. It also allows customers to submit postage
statements and other information to the Postal Service through a web-based process.

On February 5, 2010, an incorrect computer command directly impacted PostalOne!,
resulting in a system-wide outage that lasted until late in the day on February 9, 2010.
While the 4-day PostalOne! outage was the longest system outage in months, it was not
the only outage. When these outages and/or other interruptions in system availability
occur, the Postal Service implements a contingency operation plan which includes
communications to field personnel and customers with instructions for manual
verifications and other processes.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the February 2010 PostalOne! outage had an
impact on Postal Service operations and revenue collection. More specifically, we
focused on:

        Evaluating whether the outage impacted revenue collection and customer
         satisfaction.

        Determining if the outage could impact the Postal Service’s ability to remediate
         the significant deficiency9 related to mail acceptance.

        Assessing whether the outage impacted other processes relying on PostalOne!,
         such as Electronic Verification System and Intelligent Mail Barcode.

        Determining if the Postal Service identified the cause of the outage.

To accomplish our objective, we:


9
  Per Statement on Auditing Standards (SAS) No. 112, Communicating Internal Control Related Matters Identified in
an Audit, dated May 2006, a significant deficiency is a control deficiency or combination of control deficiencies that
adversely affects the entity’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the entity’s financial statements that is more than inconsequential will not be prevented or detected.
SAS No. 115, effective December 2009, revised the definition of a significant deficiency as a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. SAS 115 supersedes SAS 112 and applies new definitions to all
financial statements after December 15, 2009; however, the core standards included in SAS 112 are retained.




                                                           8
Fiscal Year 2010 PostalOne! Outage                                               FF-AR-10-205



        Reviewed the contingency plan related to BMA procedures during PostalOne!
         outages and interruptions in availability.

        Held discussions with headquarters personnel to obtain an understanding of the
         outage, the contingency plan, and efforts to remediate the problem in the future.

        Included discussions and data obtained from prior audits related to the BMA
         significant deficiency.
          
        Obtained customer feedback from mailers via a questionnaire that addressed
         how the outage and other interruptions in system availability affected their
         operations.
          
        Reviewed and analyzed documentation addressing concerns of the mailing
         industry regarding PostalOne!.
          
        Conducted site visits at the New York Pricing and Classification Service Center
         and seven judgmentally selected BMEUs.10 We interviewed management and
         unit employees about procedures followed during the outage and
         communications received from headquarters about the outage.

        Judgmentally selected postage statements to review for lateness and verified late
         postage statement data from PostalOne!.

        Interviewed IT managers and recovery response team members to determine the
         root causes of the outage and extended recovery period.

        Evaluated key procedures and practices related to backups, job scheduling, tape
         management, and database recovery and compared them to industry best
         practices.

We conducted this performance audit from February through August 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on June 23, 2010, and
included their comments where appropriate. We did not perform a reliability assessment
of the automated systems; however, we determined that automated data used for this
report was reliable by verifying automated records to source documents.

10
  Santa Ana, CA BMEU; Denver, CO BMEU; St. Louis, MO BMEU; Chicago, IL BMEU; Milwaukee, WI BMEU;
Pewaukee, MI BMEU; and Farmingdale, NY BMEU.




                                                  9
Fiscal Year 2010 PostalOne! Outage                                          FF-AR-10-205



PRIOR AUDIT COVERAGE

                           Report      Final Report
    Report Title          Number           Date                    Report Results
Fiscal Year 2009        FF-AR-10-051    12/22/2009    We identified various internal control and
Financial                                             compliance issues related to managing
Installation Audit –                                  customer accounts and eligibility;
Business Mail Entry                                   accepting, verifying, and clearing the
Units                                                 mail; and monitoring Special Postage
                                                      Payment System (SPPS) agreements.
                                                      Although internal controls were generally
                                                      in place and effective, a significant
                                                      deficiency continues to exist related to the
                                                      acceptance of mail. No recommendations
                                                      made.
Fiscal Year 2008        FF-AR-09-052   12/22/2008     We identified various internal control and
Financial                                             compliance issues related to managing
Installation Audit –                                  customer accounts and eligibility;
Business Mail Entry                                   accepting, verifying, and clearing the
Units                                                 mail; monitoring SPPS agreements and
                                                      authorizations; and protecting Postal
                                                      Service revenue. Although internal
                                                      controls were generally in place and
                                                      effective, a significant deficiency existed
                                                      related to the acceptance of mail. No
                                                      recommendations made.
Fiscal Year 2007        FF-AR-08-131    3/19/2008     We identified various internal control and
Financial                                             compliance issues related to managing
Installation Audit –                                  customer accounts and eligibility;
Business Mail Entry                                   accepting, verifying, and clearing the
Units                                                 mail; monitoring SPPS agreements and
                                                      authorizations; and protecting Postal
                                                      Service revenue. Management agreed
                                                      with the recommendations.




                                             10
Fiscal Year 2010 PostalOne! Outage                                                           FF-AR-10-205



           APPENDIX B: INTERRUPTIONS IN POSTALONE! AVAILABILITY FROM
                             MARCH 2009–MARCH 2010

            Date Help                                       Date Help
              Desk                                            Desk
             Opened       Start Time Of      End Time Of     Closed
Count         Ticket          Issue             Issue        Ticket                   Description Issue
                          3:40 PM
                          Central                                       Users are intermittently unable to access
1           03/15/10                        5:03 PM CST     03/15/10
                          Standard                                      PostalOne! due to slow response time.
                          Time (CST)
                                                                        Slow performance caused intermittent
2           03/12/10      9:17 PM CST       10:53 AM CST    03/13/10    performance/availability problems for
                                                                        application users.
                          11:22 AM                                      Internal and external users are encountering
3           02/24/10                        12:50 PM CST    02/24/10
                          CST                                           internal server errors.
                                                                        Users are unable to access PostalOne! due
4           02/05/10      5:08 PM CST       12:06 PM CST    02/09/10                         11
                                                                        to PostalOne! outage.
                                                                        Users are experiencing time stamp error
5           12/09/09      4:54 PM CST       7:23 PM CST     12/09/09
                                                                        message and slow response time.
                                                                        Users are unable to access PostalOne! due to
6           12/04/09      4:21 PM CST       5:56 PM CST     12/04/09
                                                                        slow response time.
                                                                        Users are unable to navigate to various screens
7           12/01/09      4:43 PM CST       8:40 PM CST     12/01/09    due to slow system performance caused by
                                                                        spiked central processing unit use.
8           11/20/09      2:15 PM CST       3:34 PM CST     11/20/09    Users are unable to access PostalOne!.
                                                                        Users are unable to access PostalOne! due to
9           11/17/09      3:22 PM CST       4:54 PM CST     11/17/09
                                                                        the system freezing.
                          10:00 PM
10          11/14/09                        10:43 AM CST    11/15/09    PostalOne! Release 22.0.0.
                          CST
                                                                        System performance eroded due to
11          11/13/09      4:55 PM CST       7:22 PM CST     11/13/09
                                                                        pre-deployment activities of release 22.0.0.
                                                                        Users are unable to access the login screen
12          11/05/09      6:54 PM CST       6:03 PM CST     11/05/09
                                                                        and cannot log in.
                                                                        Users are getting kicked out of PostalOne!
13          11/02/09      3:00 PM CST       4:00 PM CST     11/02/09    when trying to log in due to the system’s slow
                                                                        response time.
                                                                        Users are unable to process statements due to
14          10/30/09      2:57 PM CST       5:26 PM CST     10/30/09
                                                                        time stamp error message.
                                                                        User is unable to process statements due to
15          10/29/09      2:38 PM CST       5:33 PM CST     10/29/09
                                                                        inability to log into PostalOne!.
                                                                        User gets booted out of PostalOne! when trying
16          10/28/09      3:43 PM CST       5:11 PM CST     10/28/09    to enter a postage statement -- application
                                                                        error, time stamp error.
                                                                        Users are experiencing intermittent connectivity,
17          10/22/09      2:15 PM CST       2:57 PM CST     10/22/09    time stamp errors, page cannot be displayed
                                                                        when processing statements.




11
     This was the 4-day outage that initiated this audit.




                                                            11
Fiscal Year 2010 PostalOne! Outage                                                        FF-AR-10-205



        Date Help                                     Date Help
          Desk                                          Desk
         Opened     Start Time Of    End Time Of       Closed
Count     Ticket        Issue           Issue          Ticket                       Description Issue
                                                                    Users are experiencing intermittent connectivity,
18      10/20/09    4:01 PM CST      8:24 PM CST     10/20/09       time stamp errors when processing statements,
                                                                    and inability to access the dashboard.
19      10/16/09    1:31 PM CST      3:13 PM CST     10/16/09       User experiencing slow response time.
                    10:30 AM                                        Users are unable to login to PostalOne! due to
20      10/09/09                     10:48 AM CST    10/09/09
                    CST                                             error message -- page cannot be displayed.
                    11:21 AM                                        User is unable to access PostalOne! due to
21      10/06/09                     9:12 AM CST     10/07/09
                    CST                                             error message -- page cannot be displayed.
                                                                    User is unable to access PostalOne!. User
                                                                    cannot submit mailing statements. User
22      10/05/09    2:27 PM CST      4:27 PM CST     10/05/09
                                                                    experiencing slow response and time stamp
                                                                    error.
                                                                    Users cannot access PostalOne! due to error
23      08/31/09    8:13 AM CST      1:48 PM CST     08/31/09
                                                                    message -- PostalOne! is not available.
                                                                    User cannot access PostalOne! due to error
24      07/30/09    3:15 AM CST      8:53 AM CST     07/30/09
                                                                    message -- your request cannot be processed.
                                                                    Users cannot complete postage statements for
                    12:26 PM                                        3602 Standard and First-Class Mail® due to
25      07/30/09                     2:12 PM CST     07/30/09
                    CST                                             application error. Users experiencing slow
                                                                    performance when accessing PostalOne!.
                                                                    Users cannot access PostalOne!. Internal users
26      07/30/09    1:46 PM CST      3:20 PM CST     07/30/09
                                                                    are rerouted to gateway.usps.com.
27      07/22/09    8:19 AM CST      11:44 AM CST    07/24/09       User experiencing slow response time.
                    10:28 AM                                        Unable to access PostalOne! due to server
28      07/22/09                     7:28 PM CST     07/22/09
                    CST                                             error -- the file you requested cannot be found.
                                                                    Unable to connect to PostalOne!. login page for
29      07/22/09    6:15 PM CST      12:00 AM CST    07/22/09
                                                                    PostalOne! not available.
                                                                    Unable to access PostalOne! due to server
30      07/21/09    8:15 AM CST      10:23 AM CST    07/21/09
                                                                    error -- the file you requested cannot be found.
31      07/19/09    1:00 AM CST      5:00 PM CST     07/19/09       PostalOne! Release 20.1.0.
                    12:23 PM                                        Time stamp error and slow performance are
32      07/14/09                     3:02 PM CST     07/14/09
                    CST                                             preventing users from accessing PostalOne!.
                                                                    Users are not able to process BRM invoices.
                                                                    The screen goes to the Business Customer
33      06/18/09    6:56 AM CST      10:56 AM CST    06/18/09       Gateway screen.
                                                                    Blue page/Essential links/PostalOne! gives an
                                                                    internal server error message.
                                                                    Users sporadically denied access to
                                                                    PostalOne!. Receiving message "logons are
34      04/01/09    7:58 AM CST      8:41 AM CST     04/01/09
                                                                    currently disabled due to database
                                                                    maintenance."
                    12:19 PM                                        Time stamp errors, users sessions abruptly
35      03/30/09                     12:52 PM CST    03/30/09
                    CST                                             ended, and blank screens.
                    12:44 PM                                        Time stamp errors, users sessions abruptly
36      03/30/09                    6:26 PM CST        03/30/09
                    CST                                             ended, and blank screens.
                        Source: PostalOne! Priority Urgent and Release Outages Log




                                                     12
Fiscal Year 2010 PostalOne! Outage                                                              FF-AR-10-205



                APPENDIX C: MONETARY AND NON-MONETARY IMPACTS


                                               Monetary Impacts

                 Finding                      Impact Category                                 Amount
                    1                 Funds Put to Better Use12                                $355,107


                                           Non-Monetary Impacts

                 Finding                       Impact Category                                Amount
                    1                 Revenue at Risk13                                      $298 Million
                    1                 Goodwill/Branding14                                              $0

                                      TOTAL                                                 $298 Million




12
   Funds that could be used more efficiently by implementing recommended actions.
13
   Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).
14
   An actual or potential event or problem that could harm the reputation of the Postal Service.




                                                           13
Fiscal Year 2010 PostalOne! Outage                         FF-AR-10-205




                       APPENDIX D: MANAGEMENT’S COMMENTS




                                      14
Fiscal Year 2010 PostalOne! Outage        FF-AR-10-205




                                     15
Fiscal Year 2010 PostalOne! Outage        FF-AR-10-205




                                     16
Fiscal Year 2010 PostalOne! Outage        FF-AR-10-205




                                     17
Fiscal Year 2010 PostalOne! Outage        FF-AR-10-205




                                     18
